1a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 18-60674
-----------------------------------------------------------------------

BAY POINT PROPERTIES, INCORPORATED,
Plaintiff - Appellant
v.
MISSISSIPPI TRANSPORTATION COMMISSION;
MISSISSIPPI DEPARTMENT OF TRANSPORTATION;
DICK HALL, in his capacity as Mississippi Transportation Commissioner; MIKE TAGERT, in his capacity
as Mississippi Transportation Commissioner; TOM
KING, in his capacity as Mississippi Transportation
Commissioner; WAYNE H. BROWN, in his capacity as
former Mississippi Transportation Commissioner;
MELINDA MCGRATH, in her capacity as Executive Director of the Mississippi Department of Transportation;
LARRY BROWN, in his capacity as former Executive
Director of Mississippi Department of Transportation,
also known as Butch; DANIEL B. SMITH, in his capacity as Administrator of the Right-of-Way Division of
Mississippi Department of Transportation,
Defendants - Appellees
--------------------------------------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Mississippi
--------------------------------------------------------------------------------------------------

(Filed Aug. 27, 2019)

2a
Before DAVIS, HO, and ENGELHARDT, Circuit
Judges.
JAMES C. HO, Circuit Judge:
A state court jury found that Mississippi state officials violated the Takings Clause by exceeding the
scope of a state easement on private property. But the
jury granted a monetary award considerably lower
than the amount of “just compensation” sought by the
property owner. So the property owner, after losing on
appeal in state court and unsuccessfully seeking certiorari in the U.S. Supreme Court, brought this suit in
federal court. The State moved to dismiss on sovereign
immunity grounds, and the district court granted the
motion in an exhaustive opinion. We agree and accordingly affirm.
While this case was pending on appeal, the Supreme Court issued its decision in Knick v. Township
of Scott, 139 S. Ct. 2162 (2019). In its supplemental
briefing, the property owner contends, in effect, that
Knick overturns prior sovereign immunity law in cases
arising under the Takings Clause. But we find nothing
in Knick to support that claim.1

1

In its original brief, the property owner asked us to “address the tension” between state sovereign immunity and the
right to just compensation under the Fifth and Fourteenth
Amendments. That determination, however, is one for the Supreme Court—not this panel. See, e.g., McMurtray v. Holladay,
11 F.3d 499, 504 (5th Cir. 1993) (holding that takings claims under the Fifth Amendment are “barred because under the Eleventh
Amendment, a citizen may not sue his own state in federal court”)

3a
It is well established under the Supreme Court’s
sovereign immunity precedents that there are “only
two circumstances in which an individual may sue a
State”: (1) Congressional abrogation of state sovereign
immunity consistent with the Enforcement Clause of
the Fourteenth Amendment; or (2) State waiver of
immunity. See Coll. Sav. Bank v. Fla. Prepaid Postsecondary Educ. Expense Bd., 527 U.S. 666, 670 (1999). As
the district court correctly concluded, neither of these
circumstances are present in this case.
Nothing in Knick alters these bedrock principles
of sovereign immunity law. To begin with, the Court did
not even have occasion to re-consider sovereign immunity law in Knick, because that case involved a suit
against a locality, and it is well established that local
governments are not entitled to the sovereign immunity enjoyed by states. See, e.g., N. Ins. Co. of N.Y. v. Chatham County, 547 U.S. 189, 193 (2006) (“[T]his Court
has repeatedly refused to extend sovereign immunity
to counties.”); Jinks v. Richland County, 538 U.S. 456,
466 (2003) (“[M]unicipalities, unlike States, do not enjoy a constitutionally protected immunity from suit.”).
Nor does anything in Knick even suggest, let alone
require, reconsideration of longstanding sovereign immunity principles protecting states from suit in federal
court. Rather, Knick held only that “a property owner
has a claim for a violation of the Takings Clause” cognizable in federal court “as soon as a government takes
(citing U.S. CONST. amend. XI; Pennhurst State Sch. & Hosp. v.
Haldeman, 465 U.S. 89, 98 (1984)).

4a
his property for public use without paying for it.” 139
S. Ct. at 2170. Accordingly, Knick did away with the
previous rule requiring “a property owner [to] pursue
state procedures for obtaining compensation before
bringing a federal suit.” Id. at 2173.
In other words, to the extent that Knick has any
effect on suits against state governments, the Court
simply put takings claims against state governments
on equal footing with claims against the federal government. See id. at 2170 (“We have long recognized
that property owners may bring Fifth Amendment
claims against the Federal Government as soon as
their property has been taken.”). And nobody disputes
that takings claims against the federal government require the waiver of sovereign immunity contained in
the Tucker Act. See id. (citing 28 U.S.C. § 1491(a)(1));
id. at 2186 (Kagan, J., dissenting) (“The Tucker Act
waives the Federal Government’s sovereign immunity.”).
Not surprisingly, then, the Tenth Circuit has already held that Knick does not alter traditional principles of state sovereign immunity. See, e.g., Williams v.
Utah Dep’t of Corr., 928 F.3d 1209, 1214 (10th Cir.
2019) (“Knick did not involve Eleventh Amendment
immunity, which is the basis of our holding in this case.
Therefore, we hold that the takings claim against the
[Utah Department of Corrections] must be dismissed
based on Eleventh Amendment immunity.”). We therefore affirm.

5a
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
SOUTHERN DIVISION
BAY POINT PROPERTIES, INC.
v.

PLAINTIFF

Civil No. 1:17cv207-HSO-RHW

MISSISSIPPI TRANSPORTATION
COMMISSION, et al.
DEFENDANTS
MEMORANDUM OPINION AND
ORDER GRANTING DEFENDANTS’
MOTION 161 TO DISMISS
(Filed Aug. 20, 2018)
BEFORE THE COURT is the Motion [6] to Dismiss filed by Defendants Mississippi Transportation
Commission (“MTC”), Mississippi Department of
Transportation (“MDOT”), Dick Hall, Mike Tagert,
Wayne H. Brown, Melinda McGrath, Larry “Butch”
Brown, and Daniel B. Smith. Plaintiff Bay Point Properties, Inc. (“Bay Point”) owns fourteen acres of land
sitting on the eastern shore of the Bay of Saint Louis
in Mississippi. However, the Mississippi State Highway Commission held a permanent easement over the
land for highway purposes to facilitate the construction and maintenance of the eastern foot of the bridge
spanning the bay. In 2005, Hurricane Katrina struck
the Mississippi Gulf Coast, destroying the bridge. MTC
and MDOT rebuilt the bridge, after which they decided
to also construct a public park on the remainder of the
property that fell within the geographic limits of the
easement.

6a
Bay Point sued MTC and MDOT in state court,
arguing that construction of the park constituted a
taking of Bay Point’s land. A jury awarded Bay Point
as just compensation $500.00 in damages, and the
Mississippi Supreme Court affirmed the judgment.
Bay Point now brings this suit in federal court, seeking
over $16 million in just compensation and a declaratory judgment that Defendants’ actions and two Mississippi statutes are unconstitutional. Because Bay
Point’s claims are barred by the Eleventh Amendment
to the United States Constitution, Defendants’ Motion
[6] to Dismiss should be granted. This case will be dismissed without prejudice for lack of jurisdiction.
I.

BACKGROUND

A. Factual Background
Bay Point is a Mississippi corporation that owns
a 14.34 acre parcel of land in Pass Christian Isles,
Mississippi. Compl. [1] ¶¶ 10, 20. This property sits at
the eastern foot of the U.S. Highway 90 bridge that
crosses the Bay of St. Louis in Mississippi. Id. Bay
Point purchased the property from Wallace Walker on
August 1, 1994. Id. ¶ 21. During Walker’s ownership of
the property, on May 27, 1952, he granted the Mississippi State Highway Commission, which was the predecessor to MTC, an easement over the property for
highway purposes. Id. 24. The easement was obtained
for the specific purpose constructing “Toll Project No.
1,” the bridge crossing the Bay of St. Louis between the
cities of Pass Christian and Bay St. Louis. Id.

7a
After the easement was granted, MTC and MDOT
operated Toll Project No. 1 for more than fifty years until Hurricane Katrina destroyed the bridge on August
29, 2005. Id. ¶ 26. MTC and MDOT chose not to rebuild
Toll Project No. 1, but rather demolished and removed
it. Id. ¶ 27. MTC and MDOT decided to relocate the
bridge and selected a different roadbed for the new U.S.
Highway 90, and thus the bridge, which required the
establishment of a new right-of-way and the acquisition of additional property. Id. ¶ 28. Ultimately, MTC
and MDOT used 4.6 acres of Bay Point’s tract of land
to build the new highway, bridge, and its necessary
right-of-way. Id. ¶ 30.
After completion of the new bridge, MTC and
MDOT elected to construct a recreational park on the
remainder of the property that was not used for the
new bridge but was still subject to the easement. Id.
¶ 31. The park was built on the abandoned roadbed of
the discontinued Toll Project No. 1. Id. ¶ 32. In its
minutes dated November 10, 2009, MTC authorized
MDOT to enter into a Memorandum of Agreement on
behalf of MTC with Harrison County regarding the financing, construction, and operation of the park on
Bay Point’s property. Id. ¶ 36. Under the Memorandum, MTC would construct the park and Harrison
County would operate and maintain it. Id. ¶ 38.
When Bay Point learned of MTC and MDOT’s intention to construct the park, it sent a letter to MTC
and MDOT on November 20, 2009, objecting to the
park’s construction and demanding that construction
cease. Id. ¶ 40. On December 2, 2009, Defendant

8a
Daniel Smith, Administrator of the Right-of-Way Division of MDOT, emailed Bay Point requesting to discuss
the issue. Id. ¶ 41. Ultimately, MTC took the position
that the original easement had not been abandoned
and that Mississippi Code section 65-1-51 authorized
it to construct the park on the property in question under the existing easement. Id. ¶ 48. Section 65-1-51
states, in relevant part, that the MTC “may acquire
and have the Transportation Department develop publicly owned and controlled rest and recreation areas
and sanitary and other facilities within or adjacent to
the highway right-of-way reasonably necessary to accommodate the traveling public.” Miss. Code. Ann.
§ 65-1-51. MTC informed Bay Point that it intended to
build the park and would not purchase the property
from Bay Point. Compl. [1] ¶ 48. The park has been
completed and is currently being operated by Harrison
County. Id. ¶ 51.
B. Procedural History
1. Bay Point’s state-court jury trial and appeal
On April 1, 2011, Bay Point filed an inverse condemnation suit against MTC and MDOT in the Circuit
Court of Harrison County, Mississippi. Id. ¶ 53. A jury
trial took place from August 5 to August 13, 2013. Id.
¶ 54. The jury returned a verdict in favor of Bay Point
on its inverse condemnation claim, finding that the use
of the property was not for highway purposes and that
there was a taking of Bay Point’s property for public
use. Id. ¶ 57. The trial court instructed the jury that

9a
unless it found that MTC had released the easement
on its minutes, MTC retained the easement and the
jury could award Bay Point a sum of money not to exceed a nominal sum supported by the evidence in the
case. Id. ¶¶ 55, 58. The jury determined that the easement continued to encumber the property, Miss. Sup.
Ct. Op. [1-1] at 1-2, and awarded Bay Point $500.00 in
damages, Compl. [1] ¶ 59. The trial court denied Bay
Point’s motion for attorneys’ fees and costs, and entered a Final Judgment on January 8, 2014. Id. ¶ 60.
Bay Point appealed the trial court’s Final Judgment to the Supreme Court of Mississippi, id. ¶ 61,
which affirmed the merits1 of the Final Judgment on
July 21, 2016, id. ¶ 62. After the Supreme Court of Mississippi resolved Bay Point’s appeal, on March 3, 2017,
Bay Point filed a petition for a writ of certiorari with
the United States Supreme Court, which denied Bay
Point’s petition on June 26, 2017. Compl. [1] ¶ 63-64.
2. Bay Point’s Complaint in federal court
On July 21, 2017, Bay Point filed a Complaint [1]
in this Court pursuant to 42 U.S.C. § 1983, advancing
several claims for constitutional violations. The Complaint names as Defendants MTC, MDOT, Mike Tagert
and Tom King, in their capacities as Mississippi Transportation Commissioners, Wayne Brown and William
Minor, in their capacities as former Mississippi
1

The Mississippi Supreme Court reversed that portion of the
judgment which denied Bay Point’s motion for attorneys’ fees and
costs, and remanded that single issue to the circuit court. Id. ¶ 62.

10a
Transportation Commissioners, Melinda McGrath, in
her capacity as Executive Director of the MDOT, Larry
“Butch” Brown, in his capacity as former Executive Director of MDOT, and Daniel Smith, in his capacity as
Administrator of the Right-of-Way Division of MDOT.
Compl. [1].
Counts I, II, and VI of the Complaint bring takings, substantive due process, and unreasonable seizure claims, respectively. Compl. [1] at 19. These claims
rest upon similar grounds, specifically, that Defendants physically invaded Bay Point’s property and destroyed Bay Point’s property rights without just
compensation. Bay Point alleges that when MTC and
MDOT discontinued Toll Project No. 1, the purpose of
the easement was terminated and the property was no
longer burdened by the easement under common law.
Id. at 79. MTC was then mandated to release the easement on its minutes under Mississippi Code section
65-1-123. Alternatively, Bay Point claims that section
65-1-123 cannot be applied retroactively to the easement created in 1952. Bay Point contends that Defendants’ enforcement of Mississippi Code sections 65-1-123
and 65-1-51 to take Bay Point’s land without just compensation is unconstitutional.
In [sic] Count III advances a procedural due process claim, Compl. [1] at 34, and Count IV alleges a
violation of equal protection, id. at 35. Bay Point claims
that Defendants violated the Contracts Clause of the
Fourteenth Amendment in Count V on grounds that
Mississippi Code section 65-1-123(5)-(7) was not added

11a
to the statute until 1988, and Defendants cannot retroactively apply that statute to impair Bay Point’s
rights under the easement since it was executed in
1952. Compl. [1] at 37-38.
Count VII asserts a violation of 42 U.S.C. § 1983
and claims that Defendants violated Bay Point’s constitutional rights by taking its property without just
compensation, Compl. [1] at 39, while Count VIII advances a claim for unjust enrichment/constructive
trust. Bay Point asserts that it is the owner of the underlying fee interest in the property and that Defendants will be unjustly enriched if they continue to
possess Bay Point’s property for a purpose different
from that for which the easement was granted. Compl.
[1] at 43.
Finally, Count IX seeks declaratory relief and asks
the Court to declare Mississippi Code sections 65-1123 and 65-1-51 unconstitutional facially and as applied to Bay Point. Compl. [1] at 44, 46. Bay Point’s
prayer for relief asks the Court to declare that Defendants’ enforcement of Mississippi Code sections 65-1123 and 65-1-51 violates the Takings Clause, Due
Process Clause, the Equal Protection Clause, and the
Contracts Clause of the Constitution. Compl. [1] at 47.
Bay Point seeks actual damages and just compensation in the amount of $16,214,926.00. Id. at 47-48.

12a
3. Defendants’ Motion [6] to Dismiss
On September 1, 2017, Defendants filed a Motion
[6] to Dismiss, seeking dismissal for lack of subjectmatter jurisdiction under Federal Rule of Civil Procedure 12(b)(1) and asserting that Bay Point’s claims are
barred by the Eleventh Amendment because all Defendants are state agencies or officials named in their
official capacities and no consent has been given for
this suit. Defs.’ Mem. [7] at 5. Defendants also raise
several arguments under Federal Rule of Civil Procedure 12(b)(6) that the Complaint fails to state a claim
upon which relief can be granted. Defendants assert
that Bay Point cannot pursue a § 1983 claim against
them because, as state agencies and officials acting in
their official capacities, they are not suable “persons”
under 42 U.S.C. § 1983. Id. at 8. Defendants further
contend that Bay Point’s claims are barred by the doctrine of res judicata because both the state court suit
and this case involve the construction of the park and
Bay Point’s claim for damages for the alleged taking of
its property. Id. at 4-5. Defendants next argue that the
applicable statutes of limitations bar Bay Point’s
claims, except for the unjust enrichment claim. Id. at
6.
Defendants posit that all of Bay Point’s constitutional, declaratory relief, and § 1983 claims are governed by a three-year statute of limitations and note
that Bay Point filed its Complaint in this Court on July
21, 2017, id. at 6-7, while the limitations period commenced on April 15, 2010, when MDOT notified Bay
Point that it planned to continue public use of the

13a
easement, id. at 7. Lastly, Defendants contend that Bay
Point has not stated a claim for unjust enrichment because Defendants paid for their property interests by
purchasing a permanent easement and paying the
judgment awarded by the jury. Id. at 9.
Bay Point counters that the Eleventh Amendment
does not bar suits against state officials in their official
capacities for an ongoing violation of federal law that
seek prospective declaratory relief. Pl.’s Resp. [28] at
25. Bay Point contends that all Defendants are proper
“persons” under 42 U.S.C. § 1983 on grounds that it
sued the individual Defendants in their personal capacities and all Defendants are proper persons when
declaratory relief is sought, id. at 29-30, and that its
Complaint is not precluded by res judicata, id. at 7-10.
Bay Point agrees with Defendants that all of its claims
with the exception of the unjust enrichment claim are
governed by a three-year statute of limitations, but
takes the position that its claims did not accrue until
the United States Supreme Court denied the petition
for writ of certiorari on June 26, 2017. Id. at 26. Lastly,
Bay Point contends that it is entitled to relief on its
unjust enrichment claim because it still owns title to
the underlying fee interest in the property and Defendants have been unjustly enriched by using the property. Id. at 33-34.

14a
II.

DISCUSSION

A. Legal standard
Defendants’ argument that Bay Point’s claims
should be dismissed on Eleventh Amendment immunity grounds is a challenge to the Court’s subject-matter
jurisdiction that is evaluated under Federal Rule of
Civil Procedure 12(b)(1).
Under Rule 12(b)(1), “[a] case is properly dismissed for lack of subject[-]matter jurisdiction when
the court lacks the statutory or constitutional power to
adjudicate the case.” Home Builders Ass’n of Miss., Inc.
v. City of Madison, 143 F.3d 1006, 1010 (5th Cir. 1998)
(quotation omitted). When the Court’s subject-matter
jurisdiction is challenged, the party asserting jurisdiction bears the burden of establishing it. King v. U.S.
Dep’t of Veterans Affairs, 728 F.3d 410, 413 (5th Cir.
2013). The Court has the power to dismiss a complaint
for lack of subject-matter jurisdiction on any one of
three bases: “(1) the complaint alone; (2) the complaint
supplemented by undisputed facts evidenced in the
record; or (3) the complaint supplemented by undisputed facts plus the court’s resolution of disputed
facts.” Id. (quoting Ramming v. United States, 281 F.3d
158, 161 (5th Cir. 2001)).
When presented with a motion to dismiss pursuant to Federal Rule of Civil Procedure 12(b)(6), a court
“must assess whether the complaint contains sufficient
factual matter, accepted as true, to state a claim for relief that is plausible on its face[.]” Spitzberg v. Houston
Am. Energy Corp., 758 F.3d 676, 683 (5th Cir. 2014)

15a
(citing Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009); Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A court
must accept all well-pleaded facts as true and view
those facts in the light most favorable to the plaintiff.
Varela v. Gonzales, 773 F.3d 704, 707 (5th Cir. 2014)
(citation omitted). This tenet, however, is inapplicable
to legal conclusions. Id. (citation omitted).
B. Analysis
1. Immunity under the Eleventh Amendment
a. MTC and MDOT, as state agencies, are
immune from Bay Point’s claims.
Defendants assert that this Court lacks subjectmatter jurisdiction over Bay Point’s claims on grounds
that they are immune from suit under the Eleventh
Amendment to the United States Constitution. Defs.’
Mem. [7] at 5-6. The Eleventh Amendment provides:
The judicial power of the United States shall
not be construed to extend to any suit in law
or equity, commenced or prosecuted against
one of the United States by Citizens of another State, or by Citizens or Subjects of any
Foreign State.
U.S. Const. amend. XI.
“Eleventh Amendment immunity operates like a
jurisdictional bar, depriving federal courts of the power
to adjudicate suits against a state.” Union Pac. R. Co.
v. La. Pub. Serv. Comm’n, 662 F.3d 336, 340 (5th Cir.
2011). A nonconsenting state is immune from suits

16a
brought in federal court by the state’s own citizens as
well as by citizens of another state. Edelman v. Jordan,
415 U.S. 651, 662-63 (1974). Eleventh Amendment immunity extends to any state agency or other political
entity that is deemed an “arm” of the state. Regents of
the Univ. of California v. Doe, 519 U.S. 425, 429 (1997).
Bay Point alleges that both MTC and MDOT are
agencies of the State of Mississippi. Compl. [1] at ¶ 1112; see also Miss. Code Ann. § 65-1-2 (designating
MDOT as a “state agency” under statute creating the
department); Stuckey v. Mississippi Transp. Comm’n,
No. 3:07CV639TLS-JCS, 2009 WL 230032, at *1-2 (S.D.
Miss. Jan. 29, 2009) (finding that MTC is an arm of the
State). MTC and MDOT are state agencies, and there
is nothing in the record to indicate that MTC or MDOT
have consented to this suit in federal court. Therefore,
the Eleventh Amendment bars all of Bay Point’s claims
against MTC and MDOT, and these Defendants will be
dismissed from this civil action.
b. The Eleventh Amendment bars Bay Point’s
claims against the individual Defendants
because Bay Point seeks monetary and retrospective relief.
The remaining Defendants are all state officials of
MTC or MDOT who are being sued in their official capacities. See Compl. [1] at 1. While Bay Point argues
in its Response that it has sued the individual Defendants in their individual capacities, looking to the
Complaint, the case caption clearly identifies all of the

17a
individual Defendants as sued in their “capacit[ies] as
Mississippi Transportation Commissioner, . . . Executive Director of the Mississippi Department of Transportation,” or “Administrator of the Right-of-Way
Division” of the MDOT. Compl. [1] at 1. The Complaint
does not mention “individual capacity” or “personal capacity” with respect to these named Defendants. Bay
Point is represented by counsel such that it is not entitled to the liberal construction of its pleadings normally accorded to a pro se litigant. Cf. Miller v.
Stanmore, 636 F.2d 986, 988 (5th Cir. 1981).
Even construing Bay Point’s pleading as ambiguous as to whether the individual Defendants are being
sued in their official or individual capacities, when a
complaint does not clearly specify such capacity, “ ‘[t]
he course of proceedings’ in such cases typically will
indicate the nature of the liability sought to be imposed.” Kentucky v. Graham, 473 U.S. 159, 167 n.14
(1985). “In assessing the ‘course of proceedings,’ courts
consider several factors including the contentions
made in the parties’ briefs, the substance of the complaint, and the nature of the relief a plaintiff seeks.”
McPhail v. City of Jackson, No. 3:13CV146-HSO-RHW,
2014 WL 2819026, at *5 (S.D. Miss. June 23, 2014).
Bay Point does contend in its brief that it has sued
the individual Defendants in their personal capacities.
But the procedural history of this case, the substance
of the Complaint, and relief sought by Bay Point
demonstrate otherwise. In state court, Bay Point only
sued the MTC and MDOT, and did not sue any of the
individual Defendants. Looking to the substance of the

18a
Complaint, the Complaint alleges that the easement
over the property was granted to the Mississippi State
Highway Commission, which was the predecessor to
MTC, that MTC constructed the park on Bay Point’s
property, and that the jury found that MTC took Bay
Point’s property but that MTC had not abandoned the
easement. “Official-capacity suits generally represent
only another way of pleading an action against an entity of which an officer is an agent.” Graham, 473 U.S.
at 165 (citation, quotation marks, and ellipses omitted). Bay Point has claimed that it has been injured by
MTC’s retention of the easement, and the substance of
the Complaint does not allege personal liability on the
part of the individual Defendants.
“Personal-capacity suits seek to impose personal
liability,” and “an award of damages against an official
in his personal capacity can be executed only against
the official’s personal assets.” Graham, 473 U.S. at 165,
166. Here, however, Bay Point seeks an award of damages for just compensation for the taking, an award
that would not come from the individual Defendants’
personal assets, but rather from the State’s purse.
Moreover, Bay Point does not plead for punitive damages in its Complaint, which are only “available in a
suit against an official personally.” Graham, 473 U.S.
at 167 n.13. Bay Point has not pleaded that it is seeking to impose personal liability on the individual Defendants.

19a
c. The Ex parte Young exception does not apply to this case.
Bay Point contends that it can nevertheless proceed on its claims for declaratory relief against the
state officials in their official capacities. Pl.’s Resp. [28]
at 24. Under the Supreme Court’s exception to the
Eleventh Amendment created in Ex parte Young, a suit
challenging the constitutionality of a state official’s action in enforcing state law is not a suit against the
state. 209 U.S. 123, 159-60 (1908). Ex parte Young held
that Eleventh Amendment immunity does not prevent
federal courts from granting prospective injunctive relief to prevent a continuing violation of federal law in
claims against state officials sued in their official capacities. Id. at 155-56. Permissible suits under Ex parte
Young are confined to cases where “the relief sought” is
“declaratory or injunctive in nature and prospective in
effect.” Saltz v. Tenn. Dep’t of Emp’t Sec., 976 F.2d 966,
968 (5th Cir. 1992).
The Supreme Court has “refused to extend the
reasoning of Young, however, to claims for retrospective relief.” Green v. Mansour, 474 U.S. 64, 68 (1985).
Ex parte Young cannot be used, for instance, to obtain
an injunction requiring the payment of funds from the
state’s treasury or an order for specific performance of
a state’s contract. Va. Office for Prot. & Advocacy v.
Stewart, 563 U.S. 247, 256-57 (2011). Nor does Ex parte
Young apply to cases where “federal law has been violated at one time or over a period of time in the past,”
or to “cases in which that relief is intended indirectly
to encourage compliance with federal law through

20a
deterrence or directly to meet third-party interests
such as compensation.” Papasan v. Allain, 478 U.S. 265,
277-78 (1986). The Ex parte Young exception is also not
available “if the relief is tantamount to an award of
damages for a past violation of federal law, even
though styled as something else.” Id. at 278.
Stated more broadly, the Ex parte Young exception
does not apply when the state is the real, substantial
party in interest. Pennhurst State Sch. & Hosp. v.
Halderman, 465 U.S. 89, 101 (1984). The “general criterion for determining when a suit is in fact against
the sovereign is the effect of the relief sought.” Id. at
107 (emphasis in original). In determining whether the
Ex parte Young exception applies to a suit, “a court
need only conduct a straightforward inquiry into
whether the complaint alleges an ongoing violation of
federal law and seeks relief properly characterized as
prospective.” Verizon Md. Inc. v. Pub. Serv. Comm’n of
Md., 535 U.S. 635, 645 (2002) (citation and quotation
marks omitted). Here, Bay Point advances claims seeking actual damages and a monetary award for just
compensation. Because an award of such damages
would come from the State’s treasury, these claims are
barred.
Bay Point also seeks declaratory relief, requesting
the Court enter a declaratory judgment adjudicating
Mississippi Code sections 65-1-51 and 65-1-123 unconstitutional. Compl. [1] ¶ 205. A review of Bay Point’s
Complaint reveals that it is seeking relief that is not
prospective in nature. The substance of Bay Point’s
allegations with respect to the claim for declaratory

21a
relief are that Defendants have applied Mississippi
Code sections 65-1-51 and 65-1-123 “to preclude Plaintiff from recovering just compensation,” and “to award
Bay Point only a nominal sum of $500 in damages, rather than the just compensation due of $16,214,926.”
Compl. [1] ¶¶ 198-202. These allegations indicate that
Bay Point seeks declaratory relief in order to receive
greater compensation and money damages than it did
in state court based upon a past violation of federal
law. Ex parte Young does not apply in such a situation.
The retrospective nature of Bay Point’s requested relief is made clear by its Response in Opposition to Defendants’ Motion to Dismiss, in which
Bay Point asserts that it seeks declaratory relief because Defendants have applied the Mississippi statutes
“to preclude Plaintiff from recovering just compensation” for the taking. PL’s Mem. [28] at 25. Moreover,
Bay Point asserts that “the Eleventh Amendment
should not immunize Defendants from the obligation
to pay just compensation.” Id. at 26. In other words,
Bay Point has acknowledged that with regard to its requested injunctive relief, the only effect it seeks is to
require the State to pay over $16 million in compensation.
Furthermore, with regard to the request for declaratory relief, Bay Point posits that “[t]here is a justiciable controversy in this case as to whether
Defendants can retroactively apply Miss. Code Ann.
§ 65-1-123 to expand the right of MTC to use property
beyond the scope of highway easements limited to
specific purposes” and as to whether Defendants have

22a
applied the Mississippi statutes “so that private property can be used by the public for entirely different purposes than the one use permitted under an existing
specific highway easement without the payment of just
compensation.” Compl. [1] ¶¶ 203-04.
These assertions do not allege an ongoing violation of federal law, rather, they speak in terms of actions that have occurred in the past. Defendants’
application of these statutes to Bay Point occurred in
the past, when Defendants constructed the park on
Bay Point’s property and when the jury determined
during the state court proceedings that the easement
continued to encumber the property. The controversy
regarding MTC’s use of the property beyond a highway
purpose has already occurred and has been adjudicated by both a state trial court and the State’s highest
court.
Bay Point does also maintain that Defendants’
“ongoing, physical invasion” of Bay Point’s property violates the Constitution. Pl.’s Resp. [28] at 25. Even if
the Court were to construe Defendants’ continued operation of the park as an ongoing violation of federal
law, Bay Point still has not shown enough to avoid the
Eleventh Amendment bar to its suit. Bay Point must
allege an ongoing violation of federal law and seek relief that is prospective in nature. Verizon, 535 U.S. at
645. In other words, Bay Point must seek relief that
will govern the future conduct of Defendants. See
Pennhurst, 465 U.S. at 102-03. Bay Point’s request for
declaratory relief does not seek to enjoin Defendants
from taking any action in the future, and Bay Point

23a
does not allege that it faces a threatened future injury
from Defendants’ application of these statutes.
If Bay Point’s request is construed as seeking to
enjoin Defendants from operating the park and from
relying on the MTC minutes to maintain that the easement has not been terminated, and requiring Defendants to look to common law at the time of the grant of
the easement, under the particular circumstances of
this case such relief remains nonetheless retrospective.
A Mississippi trial court applied the statutes Bay Point
now challenges and a jury accordingly found that the
easement had not been terminated, thus the property
was still encumbered. The Supreme Court of Mississippi affirmed that verdict. Declaring the Mississippi
statutes unconstitutional would have the effect of nulling the state court judgment. Bay Point’s chief complaint is that it believes that it has been injured by
receiving only $500.00 in just compensation. But to
the extent Bay Point claims that it has been harmed
by the jury’s award, that injury has already occurred,
and undoing that verdict would in effect afford Bay
Point retrospective, not prospective, relief.
Bay Point’s claims in this regard cannot avoid Defendants’ Eleventh Amendment immunity, and this
Court must dismiss them because it lacks jurisdiction
to adjudicate them. Because the basis for the dismissal
is this Court’s lack of subject-matter jurisdiction due
to the Eleventh Amendment, the dismissal will be
without prejudice. Campos v. United States, 888 F.3d
724, 738 (5th Cir. 2018).

24a
III.

CONCLUSION

IT IS, THEREFORE, ORDERED AND ADJUDGED that Defendants Mississippi Transportation
Commission, Mississippi Department of Transportation, Dick Hall, Mike Tagert, Wayne H. Brown, Melinda
McGrath, Larry “Butch” Brown, and Daniel B. Smith’s
Motion [6] to Dismiss is GRANTED.
IT IS, FURTHER, ORDERED AND ADJUDGED that this civil action is DISMISSED
WITHOUT PREJUDICE on grounds of Eleventh
Amendment immunity.
SO ORDERED AND ADJUDGED, this the 20th
day of August, 2018.
s/ Halil Suleyman Ozerden
HALIL SULEYMAN OZERDEN
UNITED STATES DISTRICT JUDGE

25a
201 So. 3d 1046
Bay Point Props. v. Miss. Transp. Comm’n
Supreme Court of Mississippi
July 21, 2016, Decided
NO. 2014-CA-01684-SCT
Counsel: ATTORNEYS FOR APPELLANT: WILLIAM
ALEX BRADY, II, CHARLES STERLING LAMBERT,
JR.
ATTORNEYS FOR APPELLEES: CHRISTOPHER M.
HOWDESHELL, JACK HOMER PITTMAN.
Judges: RANDOLPH, PRESIDING JUSTICE, WALLER, C.J., DICKINSON, P.J., LAMAR, COLEMAN, MAXWELL AND BEAM, JJ., CONCUR. KITCHENS, J.,
DISSENTS WITH SEPARATE WRITTEN OPINION
JOINED BY KING, J.
Opinion by: RANDOLPH
Opinion
NATURE OF THE CASE: CIVIL - EMINENT DOMAIN
EN BANC.
RANDOLPH, PRESIDING JUSTICE, FOR THE
COURT:
P1. Bay Point Properties Inc. filed inverse condemnation proceedings against the Mississippi Transportation

26a
Commission,1 claiming the easement MTC had across
Bay Point’s property had terminated and that MTC
was required to pay Bay Point the unencumbered value
of the property. The issue was put to the jury, which
determined the easement—for which the Commission
had paid $50,000—continued to encumber the property, but that the use by MTC was not a highway purpose. The jury awarded Bay Point the encumbered
value of $500, as testified to by two witnesses.2 Bay
Point appealed. We affirm in part the judgment of the
Circuit Court for the First Judicial District of Harrison
County. However, the trial court failed to follow Section
43-37-9’s mandate to “determine and award or allow
. . . such sum as will, in the opinion of the court[,] . . .
reimburse such plaintiff for his reasonable costs, disbursements and expenses, including reasonable attorney, appraisal and engineering fees, actually incurred
because of such proceeding.” Thus, we reverse the judgment of the Harrison County Circuit Court in part and
remand the case with instructions to the trial court to
hold a hearing in compliance with Section 43-37-9.
FACTS AND PROCEDURAL HISTORY
P2. In 1952, the Mississippi State Highway Commission, MTC’s predecessor, acquired an easement over
1

For purposes of this opinion, we refer collectively to the
Transportation Commission and the Department of Transportation as MTC.
2
Bay Point’s expert refused to give an encumbered value. As
a result, the only encumbered-value testimony before the jury was
between $100 and $500.

27a
certain property of Wallace Walker for “all highway
purposes” by an agreed judgment.3 The property was
used to reconstruct a bridge spanning the Bay of St.
Louis, between Pass Christian and Bay St. Louis, after
the bridge had burned in 1948.4 After Hurricane Katrina destroyed the bridge in 2005, MTC constructed a
newly designed bridge across the bay.5 MTC subsequently entered an agreement with Harrison County,
which provided that (1) MTC would build a park,
(2) Harrison County would maintain the park, (3) Harrison County would provide MTC any additional property required to build the park, and (4) MTC would
maintain its property interest (its easement) in the
park. MTC then built a park, with a parking lot, on the
old road bed, with stairs connecting to the new bridge,
which included a walking and biking path for the public.
P3. Bay Point, Walker’s successor in interest, filed inverse condemnation proceedings, claiming the easement terminated on the whole property when the new
bridge was constructed following Katrina. Alternatively, Bay Point argued that the easement terminated
3

Pursuant to an agreed judgment, the Commission paid
Walker $50,000 and Walker reserved a five-foot buffer along
Bayou Boisdore to prohibit the general public from using bayou
frontage.
4
The bridge suffered substantial damage following Hurricane Camille in 1969, but MTC was able to repair the bridge in
place.
5
The new design required that the eastern foot of the new
bridge be moved south and west to flatten out or straighten the
curve approaching the now-elevated bridge.

28a
on that portion of the easement used to build the park
when the park was constructed. Bay Point asserted
MTC’s subsequent use constituted a taking for which
it was entitled to just compensation of the unencumbered value of the property. MTC argued that it was
using the property for highway purposes. Alternatively, MTC argued that, even if its use was not a highway purpose, the easement continued to burden the
property because it had not been released on MTC’s
minutes as required by Section 65-1-123. See Miss.
Code Ann. § 65-1-123 (Rev. 2012). Therefore, any compensation owed to Bay Point would be the value of the
property, encumbered by the easement.
P4. The jury viewed the property and heard five days
of testimony before returning a verdict for Bay Point.
The circuit court denied Bay Point’s motion for attorneys’ fees, costs, and expenses, as well as its post-trial
motions for additur, new trial on the issue of damages,
and/or judgment notwithstanding the verdict (JNOV).
Bay Point appealed.
ISSUES
P5. Bay Point raises the following issues, which we
restate and reorder for clarity:
I. Whether the trial court erred in granting
MTC’s motion in limine regarding release of the
easement.
II. Whether the trial court erred in denying Bay
Point’s supplemental motion in limine regarding
testimony of a nominal sum.

29a
III. Whether the trial court erred in excluding
testimony of an appraisal of the five-foot buffer.
IV. Whether the trial court erred in giving jury
instructions D-2A, D-3A, and D-7A.
V. Whether the trial court erred in refusing jury
instruction P-4.
VI. Whether the trial court erred in not instructing the jury that MTC must acquire property in
fee to use as rest and recreation areas under Section 65-1-51.
VII. Whether the jury verdict was supported by
substantial evidence.
VIII. Whether the trial court erred in denying
Bay Point’s motion for attorneys’ fees and costs.
IX. Whether the trial court erred in denying Bay
Point’s post-trial motions.
ANALYSIS
I.

Whether the trial court erred in granting
MTC’s motion in limine regarding release
of the easement.

P6. Bay Point argues the trial court erred in granting
MTC’s motion in limine, limiting evidence of abandonment of the easement to the minutes of the Commission. We review evidentiary matters for an abuse of
discretion. Ware v. Entergy Miss., Inc., 887 So. 2d
763, 766 (Miss. 2004). There is no abuse of discretion
in granting a motion in limine “if the court determines
that (1) the material or evidence in question will be

30a
inadmissible at trial under the rules of evidence; and
(2) the mere offer, reference, or statements made during trial concerning the material will tend to prejudice
the jury.” Id.
P7. The Legislature has provided by statute the process by which an easement for highway purposes terminates: “All easements for highway purposes shall be
released when they are determined on the minutes of
the commission as no longer needed for such purposes[.]” Miss. Code Ann. § 65-1-123(5). The section
further provides that “[i]n no instance shall any part of
any property acquired by the commission, or any interest acquired in such property, including, but not limited to, easements, be construed as abandoned by
nonuse[.]” Miss. Code Ann. § 65-1-123(6). Per the statute, the easement could not have been abandoned by
nonuse. Release (i.e., termination or abandonment) requires a determination on the minutes.
P8. Therefore, any evidence of abandonment other
than minute entries is irrelevant and inadmissible. See
M.R.E. 401 (“ ‘Relevant Evidence’ means evidence having any tendency to make the existence of any fact that
is of consequence to the determination of the action
more probable or less probable than it would be without the evidence.”); M.R.E. 402 (“Evidence which is not
relevant is not admissible.”). As the statute itself provides the sole process by which an easement for highway purposes terminates, the trial court did not err in
limiting evidence of abandonment to what the statute
requires—Commission minute entries.

31a
P9. The dissent’s separation-of-powers argument is
misplaced. See Dis. Op. at ¶¶ 42-43. The Legislature
has decreed that it is the Transportation Department’s
prerogative whether to release a highway easement.
MTC is the entity charged with transportation-related
policy decisions, not this Court.6
II.

Whether the trial court erred in denying
Bay Point’s supplemental motion in limine
regarding testimony of a nominal sum.

P10. Bay Point argues on appeal that it filed a supplemental motion in limine to strike any testimony
that its property was worth a nominal sum. However,
Bay Point mischaracterizes its own motion. Bay Point’s
supplemental motion in limine requested only that
the trial court “bar the expert testimony of John ‘Jeb’
Stewart[.]” The motion asserted that “Mr. Stewart
should not be allowed to offer his opinion. . . . Mr. Stewart should not be allowed to offer any testimony. . . .
Mr. Stewart should not be allowed to sit in front of the
jury. . . .” Finally, Bay Point requested the court “bar
the expert testimony of John ‘Jeb’ Stewart.”
P11. While the trial court denied the motion, Stewart
did not testify. We fail to see how Bay Point was
6

The dissent contends this Court’s “interpretation of the law
permits the MTC unilaterally to determine when an easement
has terminated.” Dis. Op. at ¶ 43. To be clear, whether the easement had been abandoned was a determination to be made by the
appropriate factfinder—in this case, the jury. See Jury Instruction D-7A, ¶ 16, infra. As in all cases, a jury’s decision is subject
to judicial review.

32a
prejudiced by the trial court’s refusal to bar Stewart
from testifying when Stewart in fact did not testify.7
See M.R.E. 103(a) (“Error may not be predicated upon
a ruling which admits or excludes evidence unless a
substantial right of the party is affected[.]”).
III.

Whether the trial court erred in excluding
testimony of an appraisal of the five-foot
buffer.

P12. At some point, MTC appraised the value of the
five-foot buffer around Bayou Boisdore reserved to
Walker in the agreed judgment. Bay Point argues the
trial court erred in excluding evidence of that appraisal. In Coleman v. Mississippi Transportation
Commission, 159 So. 3d 546, 548 (Miss. 2015), this
7

Bay Point argues in its supplemental motion in limine that
Brian Moore and Tommy Madison should not have been allowed
to testify regarding a nominal value for the same reasons it asserted Stewart should not have been allowed to testify to a nominal value. However, the motion sought only to exclude Stewart’s
testimony. At trial, Bay Point failed to object that Moore’s or Madison’s opinions were improper expert testimony. If no contemporaneous objection is made, an error is waived. InTown Lessee
Assocs., LLC v. Howard, 67 So. 3d 711, 719 (Miss. 2011). See
also M.R.E. 103(a)(1). Nevertheless, Madison testified that, according to “the appraisal methodology and treatises,” an underlying fee encumbered by an easement for all highway purposes has
a nominal value of around $100-$500. Moore testified that “the
appraisal industry” places a nominal value of around $500 on
property encumbered by an easement for all highway purposes.
Opinions supported by methodologies recognized in the appraisal
industry are admissible. See Miss. Gulf Props., LLC v. Eagle
Mech., Inc., 98 So. 3d 1097, 1103-04 (Miss. Ct. App. 2012) (citing
Gulf S. Pipeline Co. v. Pitre, 35 So. 3d 494 (Miss. 2010)).

33a
Court held a trial court in error for excluding a second
appraisal of the same property. As the appraisal was
of the same property, it was “relevant and admissible”
as to the value of that property. Id. at 551-52. However,
the appraisals here are of two different parcels of property. The five-foot buffer was reserved to Walker, and
thus he retained rights in that property that he did not
retain in the property subject to MTC’s easement. The
trial court found the evidence would be irrelevant
and would serve only to confuse the jury, as the value
of the buffer was not related to the value of the property, whether encumbered or not. Moreover, neither
the park nor the highway sits on the buffer. The trial
court did not abuse its discretion in excluding this evidence.
IV.

Whether the trial court erred in giving
jury instructions D-2A, D-3A, and D-7A.

P13. “The main query we make when reviewing jury
instructions is whether (1) the jury instruction contains a correct statement of the law and (2) whether
the instruction is warranted by the evidence.” N. Biloxi Dev. Co., LLC v. Miss. Transp. Comm’n, 912
So. 2d 1118, 1123 (Miss. Ct. App. 2005). In reviewing
jury instructions, the instructions must be read as a
whole. Id.
P14. Instruction D-2A instructed the jury “that an
easement encumbers, or is still over and upon the land
unless it has been abandoned by [MTC].” Instruction
D-3A instructed the jury that, in order to prevail on the

34a
issue of abandonment, Bay Point had to prove by full
and clear evidence that MTC had abandoned the easement. The instruction then quoted Section 65-1-123,
which provides that abandonment of an easement requires a release on the minutes of the Commission, rather than mere nonuse.
P15. Bay Point argues the full and clear evidence
standard was erroneous. However, “[e]vidence of abandonment must be ‘full and clear.’ ” Stone v. Lea Brent
Family Invs. L.P., 998 So. 2d 448, 456 (Miss. Ct. App.
2008) (quoting Columbus & Greenville Ry. Co. v.
Dunn, 184 Miss. 706, 185 So. 583, 586 (1939)). Bay
Point further argues the easement could have terminated in ways other than a minute entry of release
by MTC, but D-3A quoted the statute directly. As discussed in Issue I supra, this issue is without merit.
P16. Finally, D-7A presented the jury with three alternative findings:
If you find (1) that [MTC]’s easement has not
been abandoned, and (2) that the use being
made of the property in this case is a highway
purpose, then your verdict shall be in favor of
[MTC], and no sum of money shall be awarded
to [Bay Point]. Or,
Alternatively, if you find (1) that [MTC]’s easement has not been abandoned, but (2) that the
use being made of the property in this case is
not a highway purpose, then your verdict shall
be in favor of [Bay Point], and you may award
it a sum of money, but said sum may not

35a
exceed a nominal sum that has been evidenced by the proof in the case. Or,
Alternatively, if, and only if, you find by full
and clear evidence that [MTC]’s easement has
been abandoned, and that the property of
[Bay Point] has been taken by [MTC], you may
award [Bay Point] just compensation for any
such taking, just compensation being what
you determine to be the difference between
the fair market value of the property taken after proper application of the before and after
rule.
P17. The jury essentially had to resolve two issues:
whether the easement was abandoned, and whether
the use being made was a highway purpose. If the easement remained in existence and MTC was using it for
a highway purpose, there was no taking. If the easement remained in existence, but MTC was using the
property for a purpose other than a highway purpose,
then MTC took Bay Point’s property. However, the compensation owed would be the value of the property,
subject to the easement, and could not exceed a sum
evidenced by the proof offered. The only encumbered
value placed before the jury was a nominal one (between $100 and $500).8 Alternatively, if the easement
had been abandoned, and MTC was using the property
for a purpose other than a highway purpose, then MTC
8

Had greater values been testified to, the argument that a
“nominal sum” was incorrect would have more validity. However,
the only encumbered value evidenced by proof in this case was a
nominal one. Therefore, the instruction correctly instructed the
jury as to how the law applied to the facts in this case.

36a
took Bay Point’s property, for which Bay Point was
owed the value of the property, unencumbered by the
easement. This instruction contains a correct statement of the law that was warranted by the evidence,
given the testimony offered of the necessity to repair
and/or replace the Highway 90 bridge that spans the
Bay of St. Louis. See ¶ 2 supra.
P18. The dissent raises arguments not presented to
the trial court. (See Dis. Op. at ¶¶ 41-42). However, we
do not consider arguments raised for the first time on
appeal. See Anderson v. LaVere, 136 So. 3d 404, 410
(Miss. 2014). We do not hold trial courts in error on
issues not presented to them for consideration. See
Ridgway Lane & Assocs. v. Watson, 189 So. 3d 626,
630 n.4 (Miss. 2016) (quoting InTown Lessee Assocs.,
LLC v. Howard, 67 So. 3d 711, 718 (Miss. 2011));
Ronk v. State, 172 So. 3d 1112, 1139 (Miss. 2015) (citing Moawad v. State, 531 So. 2d 632, 634 (Miss. 1988)).
Furthermore, Bay Point did not object to the instruction based on the arguments introduced anew by the
author of the dissent. If a proper contemporaneous objection is not made, an error is waived. See InTown, 67
So. 3d at 719.
V.

Whether the trial court erred in refusing
jury instruction P-4.

P19. P-4 is a long and convoluted instruction. Among
other things, it gives the jury a summary of Bay Point’s
position along with a summary of MTC’s position. It
then presents the jury with the following:

37a
If you find that:
1. The underlying property burdened by the
easement granted by Wallace C. Walker in
1952 is owned in fee by [Bay Point]; and
2. That [MTC] only possessed an easement
for the limited purpose granted in the 1952
Judgment and Verdict; and
3. [MTC]’s current uses of the Property of
Bay Point are outside the limited and specific
scope of the Easement granted to [MTC], then
you must find in favor of [Bay Point] and
award just compensation. If you find that the
current uses of [Bay Point]’s property are
within the scope of the Easement granted in
the 1952 Judgment and Verdict, then you
must find in favor of [MTC].
P20. As discussed in Issue IV supra regarding instruction D-7A, the jury had to determine whether the
easement still burdened the property and whether
MTC’s use was a highway purpose. Instruction P-4 is
premised on Bay Point’s position that the easement
terminated when MTC used the property for a nonhighway purpose, which fails to consider Section 65-1123’s requirement that easements be declared as no
longer necessary on Commission minutes before they
are released. “An instruction that incorrectly states the
law, is covered fairly in another instruction or is without foundation in the evidence need not be given.” N.
Biloxi, 912 So. 2d at 1123. We find the trial court did
not err in refusing to give jury instruction P-4.

38a
VI.

Whether the trial court erred in not instructing the jury that MTC must acquire
property in fee to use as rest and recreation areas under Section 65-1-51.

P21. Section 65-1-51 reads, in pertinent part, “[t]he
commission may acquire and have the Transportation
Department develop publicly owned and controlled
rest and recreation areas and sanitary and other facilities within or adjacent to the highway right-of-way
reasonably necessary to accommodate the traveling
public.” Miss. Code Ann. § 65-1-51 (Rev. 2012). Bay
Point argues this section requires MTC to buy property
used for rest and recreation areas in fee, and that the
trial court erred in not instructing the jury to that effect. MTC counters by arguing it can build rest and recreation areas on publicly owned easements for such
purposes.
P22. However, we decline to address whether MTC
can build rest and recreation areas on easements.
To warrant reversal, two elements must be
shown: error, and injury to the party appealing. Error is harmless when it is trivial, formal, or merely academic, and not prejudicial
to the substantial rights of the party assigning it, and where it in no way affects the final outcome of the case; it is prejudicial, and
ground for reversal, only when it affects the
final result of the case and works adversely to
a substantial right of the party assigning it.

39a
Catholic Diocese of Natchez-Jackson v. Jaquith,
224 So. 2d 216, 221 (Miss. 1969). See also Gray v.
State, 799 So. 2d 53, 61 (Miss. 2001).
P23. Even if MTC was required to acquire the property used for the park in fee, the value of the property
depended on the existence, vel non, of the easement. If
the easement continued to exist, compensation due to
Bay Point would be the value of the property, subject
to the easement. If the easement no longer existed,
compensation due to Bay Point would be the value of
the property, unencumbered by the easement. The jury
was presented with only two values: an encumbered
value of between $100 and $500, and an unencumbered value of $26 per square foot. The jury determined the easement continued to exist and awarded
Bay Point $500. That being the case, instructing the
jury that MTC was required to acquire land used for
rest and recreation areas in fee would not have affected
the final result of the case, and therefore did not prejudice Bay Point. See Jaquith, 224 So. 2d at 221. Assuming the trial court erred by not instructing the jury
that MTC must acquire land used for rest and recreation areas in fee, that error was harmless.
VII.

Whether the jury verdict was supported by
substantial evidence.

P24. “This Court has a long-standing history of not
disturbing jury verdicts in eminent domain proceedings, especially when the jury has viewed the property
being taken and the evidence in the record supports

40a
the jury’s findings.” Trowbridge Partners, L.P. v.
Miss. Transp. Comm’n, 954 So. 2d 935, 943 (Miss.
2007) (citing Miss. Highway Comm’n v. Havard, 508
So. 2d 1099, 1105 (Miss. 1987)). Courts are “loathe to
disturb a jury’s eminent domain award where, as here,
the jury has personally viewed the premises.” Crocker
v. Miss. State Highway Comm’n, 534 So. 2d 549, 554
(Miss. 1988). In fact, “where the jury has viewed the
property being taken, any substantial evidence in the
record supporting the jury’s damage assessment will
preclude reversal.” Id.
P25. The jury’s verdict of $500 was supported by substantial evidence. The jury viewed the property. The
appraiser-witnesses agreed that the unencumbered
value of the property was $26 per square foot. Bay
Point’s appraiser refused to give an encumbered value.
MTC’s appraisers testified that, according to appraisal
methodology and procedures, along with their personal
knowledge of practice, the encumbered value of the
property would be a nominal sum of around $100$500.9 This was the only encumbered value presented
to the jury.
P26. Bay Point consistently argues that the easement terminated on the whole property when MTC
built the new bridge, or that it at least terminated on
the property used for the park when the park was
built. As discussed in Issue I, supra, easements for
9

Though the easement for all highway purposes rendered
the land practically worthless, this value was based on the maxim
that because land holds the world together, it cannot be devoid of
value.

41a
highway purposes can be released only when MTC
determines on its minutes that it no longer needs
the property for highway purposes.10 While MTC’s
agreement with Harrison County was executed on
the minutes, the agreement provided that the county
would provide, “at no cost to the Commission, any
right or interest in any property owned by the [c]ounty
which may be necessary to complete construction of
the [p]ark.” The agreement further provided that MTC
retained its interest in the property, and that if the
county determined it would no longer operate the park,
the county would inform MTC, “which will have the option of closing the [p]ark and removing all improvements.” The jury heard this evidence but determined it
insufficient to constitute a release.

10

Bay Point relies on Hattiesburg Realty for its contention
that highway easements can terminate other than by a declaration on commission minutes. This reliance is misplaced. Hattiesburg Realty provides “If and when the Commission decides to
abandon its right-of-way easement over all or any portion of the
Tuttle lots, or declares all or any portion of the Tuttle lots surplus
under applicable law, the disposition . . . would be governed and
controlled by applicable Mississippi law.” Hattiesburg Realty
Co. v. Miss. State Highway Comm’n, 406 So. 2d 329, 332 (Miss.
1981). See also Miss. State Highway Comm’n v. McClure, 536
So. 2d 895, 896 (Miss. 1988) (“When the MSHC determined that
a portion of that easement was no longer needed by the public,
the easement ceased to exist.”). These cases are consistent with
the statutory provision, as the Commission makes decisions or
declarations only through its minutes.

42a
VIII. Whether the trial court erred in denying
Bay Point’s motion for attorneys’ fees and
costs.
P27. “[A] trial court’s decision regarding attorneys’
fees will not be disturbed by an appellate court unless
it is manifestly wrong.” Tupelo Redevelopment Agency
v. Gray Corp., Inc., 972 So. 2d 495, 521 (Miss. 2007)
(citing Mabus v. Mabus, 910 So. 2d 486, 488 (Miss.
2005)).
P28.

Pursuant to Mississippi Code Section 43-37-9,

[w]here an inverse condemnation proceeding
is instituted by the owner of any right, title or
interest in real property because of use of his
property in any program or project in which
federal and/or federal-aid funds are used, the
court, rendering a judgment for the plaintiff
in such proceeding and awarding compensation for the taking of property, or the state’s
attorney effecting a settlement of any such
proceeding, shall determine and award or allow to such plaintiff, as a part of such judgment or settlement, such sum as will, in the
opinion of the court or the state’s attorney,
reimburse such plaintiff for his reasonable
costs, disbursements and expenses, including
reasonable attorney, appraisal and engineering fees, actually incurred because of such
proceeding.
P29. MTC used federal funds to finance construction
of the park. Bay Point was the plaintiff in this inversecondemnation proceeding. The jury rendered a verdict
for the plaintiff in the amount of $500. Based on the

43a
jury verdict, the trial court rendered a judgment for
the plaintiff in the amount of $500. Accordingly, all the
requirements of the statute were met for an award
of “reasonable costs, disbursements and expenses, including reasonable attorney,11 appraisal and engineering fees, actually incurred because of such proceeding.”
Section 43-37-9’s mandatory language—shall determine and award—leaves no room for judicial discretion, except as to a reimbursement amount that was
“reasonable.” We conclude it was within the trial
court’s discretion not to grant Bay Point’s request for
$680,000 in full. Yet we reject the trial court’s failure
to award any reimbursement at all. Such a result is in
direct violation of the statute and therefore manifestly
wrong.

11

Rule 1.5 of the Mississippi Rules of Professional Conduct
sets out several factors which the trial court should consider in
determining the reasonableness of the amount of attorneys’ fees:
(1) the time and labor required, the novelty and difficulty of the questions involved, and the skill requisite
to perform the legal service properly; (2) the likelihood,
if apparent to the client, that the acceptance of the particular employment will preclude other employment by
the lawyer; (3) the fee customarily charged in the locality for similar legal services; (4) the amount involved
and the results obtained; (5) the time limitations imposed by the client or by the circumstances; (6) the nature and length of the professional relationship with
the client; (7) the experience, reputation, and ability
of the lawyer or lawyers performing the services; and
(8) whether the fee is fixed or contingent.
Miss. R. Prof ’l Conduct 1.5(a).

44a
IX.

Whether the trial court erred in denying
Bay Point’s post-trial motions.

P30. Bay Point’s entire argument is that “the jury
award of $500 was in error and the lower [c]ourt’s refusal to grant Plaintiff ’s Motion for Additur was a clear
error of law, an abuse of discretion, manifestly wrong
and contrary to the substantial weight of the evidence,
and reversal is proper.”
P31. An additur can be granted where (1) the damages are inadequate because the jury was influenced
by bias, prejudice, or passion; or (2) the damages
awarded were contrary to the overwhelming weight of
the evidence. Miss. Code Ann. § 11-1-55 (Rev. 2014).
The evidence must be viewed in the light most favorable to the party in whose favor the jury decided. Lewis
v. Hiatt, 683 So. 2d 937, 941 (Miss. 1996). As discussed
in Issue VII supra, the jury award of $500 was supported by substantial evidence. Ergo, the trial court’s
refusal to grant additur was not in error.
CONCLUSION
P32. For the reasons stated, the judgment of the Circuit Court for the First Judicial District of Harrison
County is affirmed in part. Because the trial court rendered judgment in Bay Point’s favor and awarded it
compensation, all of the requirements of the statute
were met for an award of reasonable costs, disbursements, and expenses, including reasonable attorney,
appraisal, and engineering fees actually incurred because of such proceeding. The trial court’s failure to

45a
follow the statute’s clear mandate is reversible error.
We therefore affirm the judgment in part, reverse the
judgment in part, and remand the case to the Harrison
County Circuit Court with instructions to the trial
court to hold a hearing in compliance with Section 4337-9.
P33. AFFIRMED IN PART, REVERSED
PART, AND REMANDED.

IN

WALLER, C.J., DICKINSON, P.J., LAMAR, COLEMAN, MAXWELL AND BEAM, JJ., CONCUR.
KITCHENS, J., DISSENTS WITH SEPARATE
WRITTEN OPINION JOINED BY KING, J.

Dissent by: KITCHENS
Dissent
KITCHENS, Justice, dissenting:
P34. The majority affirms the trial court’s grant of
a jury instruction that allowed the jury to find that a
taking had occurred because the Mississippi Transportation Commission (MTC) no longer was using the
easement for highway purposes, but that just compensation could not be awarded because the MTC had not
released the easement on its minutes. Indeed, Mississippi Code Section 65-1-123(5) provides that “[a]ll
easements for highway purposes shall be released
when they are determined on the minutes of the commission as no longer needed for such purposes. . . .”

46a
Miss. Code Ann. § 65-1-123(5) (Rev. 2012). But a state
statute cannot be applied in a manner that thwarts a
landowner’s state and federal constitutional rights to
just compensation for a governmental taking of private
property. U.S. Const. amend. V; U.S. Const. amend. XIV;
Miss. Const. art. 3, § 17; Preseault v. U.S., 100 F.3d
1525, 1551-52 (Fed. Cir. 1996). Therefore, I respectfully
dissent. I would reverse and remand for a determination of just compensation owed to Bay Point for the taking of its property unburdened by the easement.
P35. The facts of this case may be stated succinctly.
In 1952, the MTC12 acquired an easement over the
property of Wallace Walker for highway purposes.
Walker’s successor, Bay Point Properties Inc., sued for
inverse condemnation after the MTC commenced construction of a public park on the easement and asserted that the use of the land for a public park was
within the scope of the easement. The jury found that,
because the MTC’s use of the land was not for highway
purposes, and thus outside the scope of the easement,
a taking had occurred. But because the MTC had not
released the easement on its minutes by entering a determination that the easement was no longer needed
for highway purposes, the jury did not award just compensation for the taking. Instead, the jury awarded
nominal damages of $500, an amount representing the
value of the Bay Point’s property encumbered by the
easement.

12

Then the Mississippi State Highway Commission.

47a
P36. On appeal, Bay Point renews its argument from
the trial that, because the jury found that the MTC’s
use of the easement exceeded its scope, the easement
was terminated, and the MTC owes just compensation
for the property unencumbered by the easement. The
MTC argues that the easement did not terminate because Section 65-1-123(6) states that the MTC’s easements cannot be construed as abandoned by nonuse,
and Section 65-1-123(5) states that easements for highway purposes “shall be released when they are determined on the minutes of the commission as no longer
needed for such purposes.” Miss. Code Ann. §§ 65-1123(5); 65-1-123(6) (Rev. 2012).
P37. Under the Fifth Amendment to the United
States Constitution, “private property [shall not] be
taken for public use, without just compensation.” U.S.
Const. amend. V. Article 3, Section 17, of the Mississippi Constitution provides,
Private property shall not be taken or damaged for public use, except on due compensation being first made to the owner or owners
thereof, in a manner to be prescribed by law;
and whenever an attempt is made to take private property for a use alleged to be public,
the question whether the contemplated use be
public shall be a judicial question, and, as
such, determined without regard to legislative
assertion that the use is public.
Miss. Const. art 3, § 17. This Court has held that the
state constitutional right “provides broader protection
of private property rights by the guarantee that

48a
‘[p]rivate property shall not be taken or damaged for
public use, except on due compensation. . . .’ ” Gilich v.
Miss. State Highway Comm’n, 574 So. 2d 8, 11 (Miss.
1990) (quoting Miss. Const. art. 3, § 17). These provisions establish absolute federal and state constitutional rights to just compensation when private
property is taken for public use.
P38. The MTC is authorized by statute to take by eminent domain any rights, title, and interests in property that are necessary for its authorized purposes.
Roberts v. State Highway Comm’n, 309 So. 2d 156,
161 (Miss. 1975); Miss. Code Ann. § 65-1-47 (Rev. 2012).
Here, the MTC took an easement for highway purposes. An easement is “[a]n interest in land owned by
another person, consisting in the right to use or control
the land . . . for a specific limited purpose.” Easement,
Black’s Law Dictionary 527 (7th ed. 1999). The dominant tenement holds the easement, and the obligation
is imposed upon the servient tenement. Browder v.
Graham, 204 Miss. 773, 38 So. 2d 188 (1948). Easements may be created by express grant, implication, or
prescription. Miss. State Highway Comm’n v. Wood,
487 So. 2d 798, 804 (Miss. 1986). When an easement is
created by express grant for a particular purpose, the
terms of the grant govern the extent of the permissible
usage. Preseault, 100 F.3d at 1542 (quoting Jon. W.
Bruce and James W. Ely, Jr., The Law of Easements and
Licenses in Land ¶ 8.02[1], at 8-3 (Rev. ed. 1995)). If the
holder of the dominant estate uses the land in a way
inconsistent with the purpose for which the easement
was granted, the easement reverts to the holder of the

49a
servient estate free of the easement. Preseault, 100
F.3d at 1542 (quoting Lawson v. State, 107 Wn.2d
444, 730 P.2d 1308, 1312 (Wash. 1986)).
P39. Bay Point argued that the easement had reverted to Bay Point when the MTC used the easement
to build a park, a use which Bay Point argued exceeded
the grant of the easement for highway purposes. The
jury agreed and found that the MTC no longer was using the easement for highway purposes; thus, a taking
had occurred. However, the trial court instructed the
jury that, unless it also found that the MTC had released the easement on its minutes, the MTC retained
the easement and the jury could not award just compensation. The trial court granted this jury instruction
after finding that Section 65-1-123(5) does not permit
the termination of an easement for highway purposes
in any manner other than by a release on the minutes.
P40. I would hold that the trial court erroneously applied Section 65-1-123(5) and Section 65-1-123(6) in a
manner that violated Bay Point’s state and federal constitutional rights to just compensation for the taking. I
would hold that the jury’s finding that the easement
was no longer used for highway purposes triggered Bay
Point’s constitutional rights to just compensation for
the value of the property unencumbered by the easement. As stated, the MTC had title to an easement for
highway purposes. As found by the jury, when the MTC
built the park, it put the property to a new use, outside
the grant of an easement for highway purposes. In
other words, according to the jury’s finding, the MTC’s
use of the easement exceeded the terms of the grant,

50a
causing the easement to revert to Bay Point and entitling Bay Point to just compensation for the MTC’s
taking of the easement for use as a park. The MTC presented no evidence or argument that the easement had
not terminated due to some need for future highway
use. This Court errs by speculating that the easement
may be needed for future repair or replacement of the
Highway 90 bridge.
P41. Moreover, the MTC acquired the easement in
1952, before the enactment of Section 65-1-123(5) and
Section 65-1-123(6). These provisions were added to
the statute by amendment in 1988. 1988 Miss. Laws,
ch. 597, § 1. Yet the trial court construed Sections 651-123(5) and Section 65-1-123(6) to require that Bay
Point could show that the easement had terminated
only if the MTC had released the easement on its
minutes. This interpretation prevented any termination of the easement that otherwise would have occurred under the common law. It has been held that,
because interests in land are fixed at the time of their
creation, application of a “later statute[ ] . . . to divest
those interests would constitute a separate ground for
finding a governmental taking.” Preseault, 100 F. 3d
at 1540 n. 13 (citing Lawson, 107 Wn.2d 444, 730 P. 2d
1308). When the easement was created in 1952, termination of an easement did not require a determination
on the MTC’s minutes. Therefore, constitutionally, Section 65-1-123(5) cannot be applied to divest the interests of Bay Point by supplanting the common law and
requiring a determination on the minutes before an
easement can terminate.

51a
P42. Additionally, the trial court’s interpretation of
Section 65-1-123(5) implicated the doctrine of separation of powers. Although the majority points out that
Bay Point never presented a separation of powers argument to the trial court, this Court may address a
separation of powers violation sua sponte. Wimley v.
Reid, 991 So. 2d 135, 136 (Miss. 2008). Article 1, Section 1 of the Mississippi Constitution provides,
The powers of the government of the State of
Mississippi shall be divided into three distinct
departments, and each of them confided to a
separate magistracy, to-wit: those which are
legislative to one, those which are judicial to
another, and those which are executive to another.
Miss. Const. art. 1, § 1. Article 1, Section 2, addresses
encroachment of power and provides, in part, that,
No person or collection of persons, being one
or belonging to one of these departments,
shall exercise any power properly belonging to
either of the others.
Miss. Const. art. 1, § 2.
P43. The jury instruction granted by the trial court
and approved by the majority in this case plainly allowed the MTC, an executive agency, to exercise power
properly belonging to the judiciary. The majority’s interpretation of the law permits the MTC unilaterally
to determine when an easement has terminated. As
shown by this case, even if the facts support the legal
conclusion that an easement has terminated by its

52a
own language, under the majority’s interpretation, the
MTC may hold the easement indefinitely by refusing
to release it on the minutes no matter how far the MTC
may stray from the public purpose for which the property was taken from its private owner. And under the
majority’s interpretation, if a lawsuit ensues, the jury’s
role is limited to deciding whether the MTC has, in
fact, released the easement on its minutes. This Court
errs by construing Section 65-1-123 to allow the MTC
to retain terminated easements until such time, if ever,
as it deigns to release them on its minutes.
P44. Finally, I would hold that Section 65-1-123(5)
and Section 65-1-123(6) are no bar to Bay Point’s recovery of just compensation equal to the value of its
property unencumbered by the easement. Section 651-123(6) states that no property interest acquired by
the MTC “shall . . . be construed as abandoned by nonuse.” Under the common law, a presumption of abandonment arises from protracted nonuse of an easement
over an extended period of time, and the presumption
is strengthened if there is proof of intent to abandon.
R & S Dev., Inc. v. Wilson, 534 So. 2d 1008, 1010
(Miss. 1988). Bay Point does not claim abandonment
by nonuse, and the jury did not find the easement to
have been abandoned. Indeed, the MTC’s use of the
easement to build a public park hardly can be considered abandonment. Instead, Bay Point argued and the
jury found that a taking had occurred because the
MTC was using the easement, but not for highway purposes. Thus, Section 65-1-123(6) did not bar Bay Point’s

53a
recovery of just compensation for the unencumbered
value of the property.
P45. Neither does Section 65-1-123(5) bar Bay Point’s
recovery of just compensation for the value of the property unencumbered by the easement. Section 65-1123(5) states that the MTC “shall” release an easement
for highway purposes when it is determined on the
minutes to no longer be needed for such purposes.
Thus, the statute places an affirmative duty upon
the MTC to determine if and when an easement is no
longer needed for highway purposes, and then to release that easement on the minutes. Here, the MTC did
not formally release the easement on its minutes. However, the jury has entered a verdict to the effect that
the easement no longer is being used for highway purposes. “Equity regards as done that which ought to be
done.” PMZ Oil Co. v. Lucroy, 449 So. 2d 201, 208
(Miss. 1984). A jury finding that the easement no longer
was being used for highway purposes eliminated the
need for a formal entry of that fact on the minutes.
Therefore, the jury should have been instructed to
award just compensation for the unencumbered value
in the event it determined the easement no longer was
being used for highway purposes.
P46. The majority affirms a verdict that violated Bay
Point’s federal and state constitutional rights to just
compensation for the taking of its property for public
use. This Court errs by interpreting Sections 65-1123(5) and (6) in a manner that violates Bay Point’s
right to just compensation. Because the jury found that
the MTC’s easement no longer was being used for

54a
highway purposes, Bay Point was entitled to just compensation for the value of the property unencumbered
by the easement. I would reverse the judgment and remand this case to the trial court for a determination of
just compensation for the unencumbered value of the
property.
KING, J., JOINS THIS OPINION.

55a
IN THE CIRCUIT COURT OF
HARRISON COUNTY, MISSISSIPPI
FIRST JUDICIAL DISTRICT
BP PROPERTIES, INC.

PLAINTIFF
CAUSE NO.
A2401-2011-00115

VERSUS
MISSISSIPPI DEPARTMENT
OF TRANSPORTATION
AND MISSISSIPPI TRANSPORTATION COMMISSION

DEFENDANTS

FINAL JUDGMENT
(Filed Jan. 7, 2014)
In this cause, the claim by the Plaintiff, BP Properties, Inc. (now known as Bay Point Properties, Inc.),
that all of its interest in certain lands described in
Exhibit “A” attached hereto and incorporated herein
(being the same legal description included in the Judgment and Verdict recorded at Deed Book 358, Pages
202-205 on August 29, 1952, in the Land Records of
Harrison County, Mississippi, First Judicial District),
was taken by the Defendants, Mississippi Department
of Transportation and Mississippi Transportation Commission, and appropriated to the public use without
payment of just compensation, was submitted to a jury
composed of Kathy Vogel and eleven other qualified
persons. On August 13, 2013, said jury returned the
following verdict:
We the jury, find for the Plaintiff, BP Properties, Inc., against the Defendant Mississippi

56a
Department of Transportation and Mississippi Transportation Commission and assess
its damages in the amount of $500.00.
It is, therefore, ORDERED AND ADJUDGED that
the verdict of the jury, finding for the Plaintiff against
the Defendants, and assessing damages in the amount
of Five Hundred and no/100 Dollars ($500.00), is hereby
entered as the Judgment of this Court.
It is further ORDERED AND ADJUDGED that
the Mississippi Transportation Commission shall tender to the Clerk of this Court the sum of Five Hundred
and no/100 Dollars ($500.00) on behalf of itself and the
Mississippi Department of Transportation; that Plaintiff ’s Motion for Attorney’s Fees, Costs and Expenses
under Mississippi Code Annotated Section 43-37-9 is
denied, as set forth under separate order of this Court;
that said $500.00 payment shall satisfy any and all of
the Defendants’ obligations to the Plaintiff in this civil
action; that the Clerk of this Court, without further order from the Court, shall disburse said $500.00 sum to
the Plaintiff upon receipt; and that a copy of this Final
Judgment shall be certified and filed in the Land Deed
Records of the Chancery Clerk’s office of the First Judicial District of Harrison County, Mississippi.
SO ORDERED AND ADJUDGED, this the 3rd day
of January, 2014.
/s/ John C. Gargiulo
JOHN C. GARGIULO
CIRCUIT COURT JUDGE

